FILED: June 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1275
(3:18-cv-00834-MGL)

CYNTHIA B. WOODS
Plaintiff - Appellant
v.
S.C. DEPARTMENT OF HEALTH & HUMAN SERVICES; MONA
SECHREST; MARSHA BROWN; KIM BACKMAN; DR. PETE LIGGETT;
CHRISTIAN L. SOURA
Defendants - Appellees
and
HOLLIE HOADWONIC
Defendant

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

H

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1275
CYNTHIA B. WOODS,
Plaintiff - Appellant,
v.
S.C. DEPARTMENT OF HEALTH & HUMAN SERVICES; MONA SECHREST;
MARSHA BROWN; KIM BACKMAN; DR. PETE LIGGETT; CHRISTIAN L.
SOURA,
Defendants - Appellees,
and
HOLLIE HOADWONIC,
Defendant.

Appeal from the United States District Court for the District of South Carolina, at
Columbia. Mary G. Lewis, District Judge. (3:18-cv-00834-MGL)
Submitted: June 18,2020
Before FLOYD, THACKER, and RUSHING, Circuit Judges.
Affirmed by unpublished per curiam opinion.

Decided: June 22, 2020

Cynthia B. Woods, Appellant Pro Se. Fred Adam Williams, GIGNILLIAT, SAVITZ &
BETTIS, Columbia, South Carolina, for Appellees.
Unpublished opinions are not binding precedent in this circuit.

PER CURIAM:
Cynthia B. Woods appeals the district court’s order accepting the magistrate judge’s
recommendation to grant Defendants’ motion to dismiss Woods’ several employmentrelated claims. On appeal, we confine our review to the issues raised in the Appellant’s
brief. See 4th Cir. R. 34(b). Because the informal brief does not challenge the bases for
the district court’s dispositive holdings, Woods has forfeited appellate review of the court’s
disposition. See Jackson v. Lightsey, 775 F.3d 170, 177 (4th Cir. 2014) (“The informal
brief is an important document; under Fourth Circuit rules, our review is limited to issues
preserved in that brief.”). Accordingly, we affirm the district court’s judgment. We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

1

/(

3:18-CV-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
COLUMBIA DIVISION
CYNTHIA B. WOODS,
Plaintiff,
vs.
S.C. DEPARTMENT OF HEALTH &
HUMAN SERVICES, MONA SECHREST,
MARSHA BROWN, KIM BACKMAN,
DR. PETE LIGGETT, and CHRISTIAN L.
SOURA,
Defendants.

§
§
§
§
§
§
§
§
§
§
§

CIVIL ACTION NO. 3:18-834-MGL

ORDER ADOPTING THE REPORT AND RECOMMENDATION
AND GRANTING DEFENDANTS’ MOTION TO DISMISS
Plaintiff Cynthia B. Woods (Woods) filed this employment action against her former
employer, Defendant South Carolina Department of Health and Human Services (SCDHHS), as well
as SCDHHS employees Defendants Mona Sechrest, Marsha Brown, Kim Backman, Dr. Pete Liggett,
and former SCDHHS Director Christian L. Soura (Soura) (collectively, Defendants). Woods is self
represented.
The matter is before the Court for review of the Fourth Report and Recommendation (Fourth
Report) of the United States Magistrate Judge suggesting Defendants’ motion to dismiss Woods’s
second amended complaint be granted and no further amended complaints be permitted. The Fourth
Report was made in accordance with 28 U.S.C. § 636 and Local Civil Rule 73.02 for the District of
South Carolina.

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 2 of 9

The Magistrate Judge makes only a recommendation to this Court. The recommendation has
no presumptive weight. The responsibility to make a final determination remains with the Court.
Mathews v. Weber, 423 U.S. 261, 270 (1976). The Court is charged with making a de novo
determination of those portions of the Report to which specific objection is made, and the Court may
accept, reject, or modify, in whole or in part, the recommendation of the Magistrate Judge or
recommit the matter with instructions. 28 U.S.C. § 636(b)(1).
The Magistrate Judge filed the Fourth Report on December 19, 2019, Woods filed her
objections on January 6, 2020, and Defendants filed their reply to Woods’s objections on January
21,2020. The Court has carefully reviewed Woods’s objections, but holds them to be without merit.
It will therefore enter judgment accordingly.
In recommending the Court grant Defendants’ motion to dismiss Woods’s second amended
complaint, the Magistrate Judge makes the following specific suggestions: Woods’s claims raised
and dismissed in the Court’s earlier orders need not be reconsidered, her Rehabilitation Act claims
are time barred, and her 42 U.S.C. § 1983 claims and her claim for injunctive relief as to Soura
should be dismissed for failure to state a claim. The Magistrate Judge also advises the Court not to
allow Woods to make any further amendments to her complaint.
In Woods’s submission, which is composed of seventy-five-handwritten pages of objections
and nine pages of exhibits, she careens from one meritless argument to another. She repeatedly
quotes other documents, often with neither quotation marks nor attribution, and makes conclusory
statements void of any legal or factual support. Nevertheless, the Court has teased out what it thinks
to be her eleven primary arguments, which it will address here.

2

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 3 of 9

First, Woods begins by generally laying out her version of the procedural history of this case.
Objections at 1-17. But, this is of no consequence to the Court’s consideration of the Fourth Report.
Therefore, to the extent these are meant to be objections, the Court will overrule them.
Second, Woods then launches into her understanding of the standard of review for a Fed. R.
Civ. P. 12(b)(6) motion, Objections at 18-23, and takes issue with the plausibility requirement
discussed in Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 545 (2007) (“Asking for plausible
grounds does not impose a probability requirement at the pleading stage; it simply calls for enough
fact to raise a reasonable expectation that discovery will reveal evidence of’ the right to relief.). Of
course, it is outside the province of this Court to ignore Supreme Court precedent. Instead, it must
follow it. Consequently, the Court will overrule these objections, too.
Third, Woods contends the Court should not have adopted the Third Report and
Recommendation (Third Report) and granted Defendants’ motion to dismiss her first amended
complaint inasmuch as she submitted a second amended complaint in lieu of filing objections to that
report. Objections at 24-27. But, she did so at her own peril.
A bit of procedural history is warranted. After the Magistrate Judge filed the Second Report
and Recommendation (the Second Report) in this case suggesting the Court grant Defendants’
motion to dismiss Woods’s original complaint, instead of filing any objections, Woods submitted
what the Court liberally construed to be a motion to file a first amended complaint. And, as the
Court noted in its February 4,2019, text order, “[i]n an abundance of caution,” it granted the motion
to amend, dismissed Defendants’ motion to dismiss Woods’s original complaint without prejudice,
and deemed the Second Report as moot.

3

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 4 of 9

When the Court filed its order adopting the Third Report and granting Defendants’ motion
to dismiss Woods’s first amended complaint, it noted Woods had failed to file any objections.
Although Woods had submitted her second amended complaint on that same day before the Court
filed its order, the Court was unaware of it as the Clerk had not yet filed it in the docket.
According to Woods, she “believes that Judge Lewis may not have [adopted the Third
Report] had she known of the second amended complaint’s existence.” Id. at 25 (some capital letters
omitted). As the argument goes, because “the second amended complaint was formatted the same
as the first amended complaint, Judge Lewis may have rendered the [Third Report] moot as she had
done on [the Second Report].” Id. (some capital letters omitted). Woods is mistaken.
The “abundance of caution” the Court exercised in its February 4, 2019, text order was
unwarranted when it adopted the Third Report. Simply put, the relevant law alongside Woods’s
allegations in her second amended complaint lead to just one unmistakable conclusion: dismissal
was proper. Thus, given Woods’s failure to file objections, and because there was no error-clear
error, Diamond v. Colonial Life &Acc. Ins. Co., 416 F.3d 310, 315 (4th Cir. 2005), or otherwise-it
was entirely appropriate for the Court to adopt the Third Report. That the Court was unaware of
Woods’s second amended complaint when it adopted the Third Report and granted Defendants’
motion to dismiss Woods’s first amended complaint is inconsequential. Hence, the Court will also
overrule this objection.
Fourth, Woods objects to the Magistrate Judge’s list of what claims are at issue in the Fourth
Report, Objections at 28-34. According to her, she is seeking a “claim for injunctive relief brought
pursuant to the ADA [and the Family and Medical Leave Act (FMLA)]” against SCDHHS;
“monetary relief brought pursuant to the FMLA [and] the Rehabilitation Act to the following
individual defendants in their individual capacities^] Mona Sechrest[,] Marsha Brown[,] Kim
Backman[, and] Pete Liggett[;] ... [and] a new claim for injunctive relief brought pursuant to the
4

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 5 of 9

FMLA, the Rehabilitation Act, and the Americans with Disabilities Act” against Christian Soura in
her official capacity. Id. at 28-29. (some capital letters omitted). Given the nature of this argument,
and the fact she adds another claim later in her objections, the Court will neither sustain nor overrule
this objection.
Fifth, Woods contends the Magistrate Judge erred is advising the Court to dismiss her
Rehabilitation Act claims on the basis they are time barred. Id. at 36-44.
“When a federal statute, like the Rehabilitation Act, does not set forth a statute of limitations,
federal courts borrow the state statute of limitations that applies to the most analogous state-law
claim. Federal district courts should borrow the limitations period from the state in which the district
court sits, as long as doing so is not inconsistent with federal law or policy.” Ott v. Maryland Dep ’t
of Pub. Safety and Corr. Serv., 909 F.3d 655, 659 (4th Cir. 2018).
Other courts in this district have found the South Carolina Human Affairs Law (SCHAL),
S.C. Code Ann. § 1-13-10, et. seq., to be the most analogous state law claim and have applied the
one-year statute of limitations found in that statute to Rehabilitation Act claims. See, e.g., Finch v.
McCormick Correctional Inst., C.A. No. 4:11-0858, 2012 WL 2871665, at *2 (D.S.C. June 15,
2012); Cockrell v. Lexington County School District One, C.A. No. 3:11-2042,2011 WL 5554811,
at *11 (D.S.C. Nov. 15, 2011); Vandeusen v. Adams, No. 3:06-1092, 2007 WL 2891502, at *5
(D.S.C. July 31, 2007). The Court agrees with those Courts and will apply a one-year statute of
limitations here.
Inasmuch as Woods was terminated on December 1,2016, but waited until March 27,2018,
to file this action, the one-year statute of limitation bars her complaint. According to Woods,
however, the continuing violation doctrine applies to these claims, Objections at 39, she “has
evidence that she sought reinstatement from [2016-2018] ‘in light of changed circumstances[,]” and

5

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 6 of 9

the “failure to reinstate her despite ... changed circumstances amount[s] to fresh acts of disability
discrimination and are not time barred[.]” Id. at 44.
Unfortunately for Woods, “[a]n employer’s refusal to undo a discriminatory decision is not
a fresh act of discrimination.” Martin v. Southwestern Virginia Gas Co., 135 F.3d 307,310 (4th Cir.
1998) (citation omitted) (internal quotation marks omitted). If it were, it “would as a practical matter
eliminate the statute of limitations in [employment discrimination] cases.” Kennedy v. Chemical
Waste Management, Inc., 79 F.3d 49, 51 (7th Cir. 1996). Put a different way, allowing a plaintiff
such as Woods “to restart the statute of limitations by sending a letter requesting reasonable
accommodations after she has been unequivocally fired would destroy the statute of limitations.”
Connerv.Reckitt&Colman,Inc.,84¥3d 1100,1102 (8th Cir. 1996). Thus, the Court will overrule
this objection as well.
Sixth, although Woods agrees with the Magistrate Judge “42 U.S.C. § 1983 can not be used
to enforce rights created by the FMLA[,]” she maintains “29 U.S.C. § 2617 can be used to enforce
rights created by the FMLA[.]” Objections at 45 (some capital letters omitted). As such, she
requests to amend her complaint to add a Section 2617 claim. Id. at 46.
Section 2617 is the enforcement provision of the FMLA. As the Court has previously held,
sovereign immunity bars Woods’s FMLA claim against the SCDHHS. See Coleman v. Md. Court
of Appeals, 566 U.S. 30, 33 (2012) (“In agreement with every Court of Appeals to have
addressed this question, this Court now holds that suits against States under [the FMLA’s
self-care provision] are barred by the States’ immunity as sovereigns in our federal system”).
Woods’s FMLA claims against the individual defendants are also disallowed by sovereign
immunity. See Lizzi v. Alexander, 255 F.3d 128 (4th Cir. 2001) (overruled in part on other
grounds by Nevada Department of Human Resources v. Hibbs, 538 U.S. 721 (2003)) (holding
state employee supervisors sued for violating an employee’s FMLA rights enjoy the same immunity

6

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 7 of 9

from suit that the state itself enjoys because the state is the real party in interest.). Therefore, the
Court will deny Woods’s request to amend her complaint to add a Section 2617 claim because such
amendment would be futile. See Laber v. Harvey, 438 F.3d 404, 426 (4th Cir. 2006) (“[LJeave to
amend a pleading should be denied ... when ... the amendment would have been futile.”).
The Court notes, when Woods listed the claims she is pursuing in her Second Amended
• Complaint, she neglected to list she was pursuing any Section 1983 claims. See Objections at 28-29.
Nevertheless, in her seventh objection, she takes issue with the Magistrate Judge’s recommendation
as to her Section 1983 claims, Id. at 47-53, and “ask[s] that this case be allowed to go forward so
that if need be Congress can use it to make a ruling on the intent of the Rehabilitation Act [and]
§ 1983 claims.” Id. at 48. In other words, she seeks to employ Section 1983 as an enforcement
mechanism for rights found in the Rehabilitation Act.
Although the Fourth Circuit has failed to address this issue directly, it has stated that, when
a statute such as the Rehabilitation Act provides individuals with a private right of action for the
enforcement of their rights under that statute, “the availability of such a remedy strongly suggests
a Congressional intent to preclude resort to § 1983.” Kendall v. City of Chesapeake, Va., 174 F.3d
437, 443 (4th Cir. 1999). Further, the Circuit courts that have dealt with the issue has rejected the
notion a plaintiff can use Section 1983 in seeking rights under the Rehabilitation Act. See, e.g., See
Vinson v. Thomas, 288 F.3d 1145,1156 (9th Cir. 2002); Lollar v. Baker, 196 F.3d 603,609 (5th Cir.
1999); Alsbrook v. City ofMaumelle, 184 F.3d 999, 1011-12 (8th Cir. 1999); Holbrook v. City of
Alpharetta, 112 F.3d 1522, 1530-31 (11th Cir.1997). The Court agrees with these circuit courts’
decisions, and thinks the Fourth Circuit, if faced with this precise question, would too. Accordingly,
it will also overrule this objection.

7

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 8 of 9

Eighth, Woods sets forth a mish mash of statements and conclusory allegations concerning
her claim for monetary relief. Objections at 54-55. But, inasmuch as the objections are both non­
specific and without merit, the Court will overrule them.
Ninth, Woods makes a long series of objections as to why she is entitled to the injunctive
relief of having her employment restored. Id. at 56-69. Like her objections concerning her claim
for monetary relief, however, her objections regarding her request for injunctive relief are also non
specific and without merit. Consequently, the Court will overrule them, too.
Tenth, Woods next offers miscellaneous general arguments as to why the Court should not
grant Defendants’ motion to dismiss. Id. at 70-71 The Court, however, is unpersuaded and will
therefore overrule these objections, too.
Eleventh, Woods maintains the Magistrate Judge erred in advising the Court to disallow any
further amended complaints. Id. at 72-75. As per the relevant law, “a district court may not deny
[a motion to amend] simply because it has entered judgment against the plaintiff.” Laber v. Harvey,
438 F.3d 404, 427 (4th Cir. 2006). “Instead, a post-judgment motion to amend is evaluated under
the same legal standard as a similar motion filed before judgment was entered—for prejudice, bad
faith, or futility.” Id. However, “[t]here is one difference between a pre- and a post-judgment
motion to amend: the district court may not grant the post-judgment motion unless the judgment is
vacated pursuant to Rule 59(e) or Fed. R. Civ. P. 60(b).” Id.
Further, although “the grant or denial of an opportunity to amend is within the discretion of
the District Court,... outright refusal to grant the leave without any justifying reason appearing for
the denial is not an exercise of discretion; it is merely abuse of that discretion and inconsistent with
the spirit of the Federal Rules.” Pittston Co. v. United States, 199 F.3d 694, 705 (4th Cir. 1999).
It follows that, for the Court to say it is going to forbid any further amendments before it has

8

3:18-cv-00834-MGL

Date Filed 02/10/20

Entry Number 103

Page 9 of 9

reviewed the motion to amend would be an abuse of the Court’s discretion. That is so because the
Court would be unable to fully consider whether the motion is justified before it has reviewed it.
Thus, although Woods’s motion to amend may be denied, the Court is unwilling to say any
such motion will be denied before it has had an opportunity to review it. As such, because the Court
is unable to determine whether it will allow any further amendment, it will neither sustain nor
overrule this objection.
Any and all other objections not discussed here are so lacking in merit as not to require
discussion. Thus, the Court will overrule those objections, too.
After a thorough review of the Report and the record in this case pursuant to the standards
set forth above, the Court overrules Woods’s objections, except as noted above, adopts the Report
to the extent it does not contradict this order, and incorporates it herein. Therefore, it is the judgment
of this Court Wood’s request to amend her complaint to add a Section 2617 claim is DENIED,
Defendants’ motion to dismiss is GRANTED, and Woods’s complaint is DISMISSED WITH
PREJUDICE.
IT IS SO ORDERED.
Signed this 10th day of February, 2020, in Columbia, South Carolina.
s/ Mary G. Lewis
MARY G. LEWIS
UNITED STATES DISTRICT JUDGE

NOTICE OF RIGHT TO APPEAL
Woods is hereby notified of the right to appeal this Order within thirty days from the date
hereof, pursuant to the Federal Rules of Appellate Procedure.
9

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page lot 26

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
Cynthia B. Woods,
Plaintiff,
vs.
S. C. Department of Health & Human
Services, Mona Sechrest, Marsha Brown,
Kim Backman, Dr. Pete Liggett, and
Christian L. Soura,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)

C/A No. 3:18-cv-00834-MGL-KDW

REPORT AND RECOMMENDATION

Plaintiff, proceeding pro se and in forma pauperis, brings this employment action against
her former employer, South Carolina Department of Health and Human Services (“SCDHHS”), as
well as SCDHHS employees—Defendants Mona Sechrest, Marsha Brown, Kim Backman, and
Dr. Pete Liggett (collectively, “Individual Defendants”), who were Plaintiffs supervisors
(Sechrest and Liggett) and Defendant’s Human Resources managers (Brown and Backman). Most
recently, Plaintiff has filed an amended pleading (Second Amended Complaint, ECF No. 84) that
adds another Defendant—former SCDHHS Director Christian L. Soura (“Defendant Soura”).
Because Defendant Soura was recently added as a Defendant, he is referred to separately herein
and not included in reference to “Individual Defendants.” Any reference to the “natural
defendants” includes all individual Defendants—Sechrest, Brown, Backman, Liggett, and Soura.
This matter is before the undersigned pursuant to 28 U.S.C. § 636(b)(1), and Local Civil Rule
73.02(B)(2)(e) (D.S.C.) for a Report and Recommendation (“R&R”) on Defendants’ Motion to
Dismiss Plaintiffs Second Amended Complaint. ECF No. 85. Plaintiff responded to the Motion,
ECF No. 96, and Defendants submitted a Reply, ECF No. 97. Having reviewed the pleadings and

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 2 of 26

filings in the case and applicable law, the undersigned recommends Defendants’ Motion to
Dismiss, ECF No. 85, be granted and no further amendment be permitted.
I.

Background
This procedural history of this matter is somewhat convoluted, and this is the fourth time

an iteration of Plaintiff s complaint has been before the undersigned for review.
A. Initial Complaint and First (May 31,2018) R&R
First, the undersigned reviewed Plaintiffs initial proper-form Complaint, ECF No. 1-6,
and recommended service of some, but not all, of the claims in that Complaint. First (May 31,
2018) R&R, ECF No. 25 (initial review of pro se Complaint conducted pursuant to procedural
provisions of 28 U.S.C. § 1915); Partial Serve Order, ECF No. 24. Plaintiff was advised of her
right to file specific objections to the First R&R, which she did on June 15, 2018. ECF No. 30.
District Judge Mary G. Lewis considered the R&R and Plaintiffs objections thereto, found the
objections to be without merit, and adopted the undersigned’s May 31, 2018 R&R. ECF No. 34.
As explained by Judge Lewis, Plaintiffs claims for injunctive relief brought pursuant to the
Americans with Disabilities Act (“ADA”) and the Family Medical Leave Act (“FMLA”) were
served on SCDHHS; Plaintiffs FMLA claim was served as to the Individual Defendants in their
individual capacities. Other claims brought by Plaintiff in her Proper Form Complaint, ECF No.
1-6, were dismissed without prejudice and without service of process. June 21, 2018 Order, ECF
No. 34.
B. Motion to Dismiss Original Complaint and Second (October 2018) R&R
Defendants responded to Plaintiffs original Complaint by filing a Motion to Dismiss all
claims. ECF No. 51. After considering the parties’ arguments and applicable law, the undersigned

2

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 3 of 26

issued an R&R recommending that Defendants’ Motion to Dismiss be granted and that Plaintiffs
Complaint be dismissed in its entirety. ECF No. 60 (“October 2018 R&R”). Plaintiff was advised
of her right to submit objections to the R&R. Instead of submitting specific objections to the
October 2018 R&R, Plaintiff filed what she called an “Amended Complaint.” ECF No. 64. Judge
Lewis liberally construed Plaintiffs filing as a Motion to Amend the Complaint and gave
Defendants time to respond to that motion, ECF No. 65, which they did, ECF No. 67. “In an
abundance of caution,” Judge Lewis granted Plaintiffs Motion to Amend, mooted then thenpending Second R&R and the motion to dismiss the earlier Complaint, and returned the matter to
the undersigned for further proceedings. ECF No. 68.
C. Motion to Dismiss Amended Complaint and Third (April 18, 2019) R&R
1. Third R&R recommending Motion to Dismiss Amended Complaint be granted
Defendants responded to the Amended Complaint by filing another Motion to Dismiss.
ECF No. 71. After considering Plaintiffs response, ECF No. 74, and Defendants’ Reply, ECF No.
75, the undersigned issued a Third R&R recommending Defendants’ Motion to Dismiss be granted
and the case be ended, ECF No. 77. Again, Plaintiff was advised of her right to file objections to
that R&R. The Notice on the last page of the Third R&R advised Plaintiff that she had 14 days to
submit any objections. Third (April 18, 2019) R&R 17. Service by mail afforded Plaintiff three
additional mailing days. See ECF No. 77.
2. May 6, 2019 filings
Plaintiff never filed objections to the Third R&R. Judge Lewis adopted the R&R in an
Order dated May 6, 2019. A judgment dismissing the action without prejudice followed. ECF Nos.
81, 82. The Clerk of Court closed this matter.
3

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 4 of 26

Also on May 6, 2019 Plaintiff submitted a Second Amended Complaint, which was
docketed by the Clerk of Court. ECF No. 84. Plaintiff filed the amended pleading without
providing written consent of the opposing party and without seeking leave of court as contemplated
by Federal Rule of Civil Procedure 15(a)(2). Further, for future reference, the undersigned points
out to Plaintiff that her Second Amended Complaint was not appropriately considered an
“objection” or otherwise a response to the R&R, Plaintiffs suggestion to the contrary
notwithstanding. PI. Mem. 3 (indicating she filed a Second Amended Complaint “in response to”
the R&R). The R&R plainly contemplated Plaintiffs filing “[sjpecific written objections” that
“specifically identified] the portions of the [R&R] to which objections are made and the basis for
such objections.” Third R&R 17 (citing statutory and case law, including, e.g., Fed. R. Civ. P.
72(b)). The District Court was not required to conduct specific de novo review of
recommendations in the R&R absent such specific written objections. The submission of an
amended pleading is not the same as submitting written objections.
The undersigned acknowledges Plaintiffs argument that the Second Amended Complaint
was “in response” to the R&R and that it was “received” by the court at 8:31 a.m., several hours
before Judge Lewis’s Order adopting the Third R&R was docketed (at 11:34 a.m.), although the
Second Amended Complaint was not docketed until after the Order (at 11:55 a.m.). See PI. Mem.
2 and ECF No. 96-1 at 1-3. At bottom, however, this precise sequence of events becomes
unimportant. Absent specific objection to the recommendations in the Third R&R, Judge Lewis
appropriately adopted the Third R&R regardless of the timing of the docket entries on May 6,
2019. In any event, because Plaintiffs Second Amended Complaint was docketed (and, de facto,
permitted), Defendants filed the Motion to Dismiss now before the court. ECF No. 85. At bottom,
4

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 5 of 26

then, regardless of the status of the Third R&R, the ultimate issue—whether any of Plaintiffs
claims in her Second Amended Complaint should survive Defendants’ Rule 12(b) challenge—is
discussed within.
D. Plaintiffs June 4, 2019 Appeal to the Fourth Circuit
Plaintiff did not respond to Defendant’s Motion to Dismiss the Second Amended
Complaint within the 14 days permitted by Local Rule. Rather, Plaintiff submitted a Notice of
Appeal to the Fourth Circuit, appealing Judge Lewis’ Order adopting the Third R&R and the
Judgment following same. ECF No. 86. The docket reflects several events that took place in June
2019 regarding that appeal, USCA Case Number 19-1606. ECF Nos. 86-90. While the matter was
on appeal, no action took place in this court. On September 30, 2019, the Fourth Circuit issued an
unpublished per curium opinion dismissing the appeal as interlocutory and remanding for further
proceedings, including the motion to dismiss the second amended complaint “still pending in the
district court.” ECF No. 91 at 2. The Fourth Circuit mandate issued on October 22, 2019, and the
case was reopened in this court and again was referred to the undersigned for pretrial proceedings,
including the consideration of Defendants’ Motion to Dismiss the Second Amended Complaint.
E. Motion to Dismiss Second Amended Complaint, ECF No. 85
On October 24, 2019, the undersigned issued an order to Plaintiff pursuant to Roseboro v.
Garrison, 524 F.2d 309, (4th Cir. 1975), advising Plaintiff that she was required to submit a
response to Defendants’ Motion to Dismiss by November 25, 2019. ECF No. 94. Plaintiff
submitted such a response, ECF No. 96, and Defendants replied on December 2, 2019, ECF No.
97.

5

3:18-cv-00834-MGL

II.

Date Filed 12/19/19

Entry Number 98

Page 6 of 26

Standard of review
Defendants seek dismissal of Plaintiff s Second Amended Complaint, arguing Plaintiff has

failed to state a claim. “A motion filed under Rule 12(b)(6) challenges the legal sufficiency of a
complaint.” Francis v. Giacomelli, 588 F.3d 186, 192 (4th Cir. 2009). A motion to dismiss for
failure to state a claim should not be granted unless it appears certain that the plaintiff can prove
no set of facts that would support his claim and would entitle him to relief. Fed. R. Civ. P. 12(b)(6).
Pro se complaints are held to a less stringent standard than those drafted by attorneys, Gordon v.
Leeke, 574 F.2d 1147, 1151 (4th Cir. 1978), and a federal district court is charged with liberally
construing a complaint filed by a pro se litigant to allow the development of a potentially
meritorious case. Erickson v. Pardus, 551 U.S. 89, 94 (2007); Kerr v. Marshall Univ. Bd. of
Governors, 824 F.3d 62, 72 (4th Cir. 2016). When a federal court is evaluating a pro se complaint,
the plaintiffs allegations are assumed to be true. De 'Lonta v. Angelone, 330 F.3d 630, 630 n.l
(4th Cir. 2003). Nevertheless, the requirement of liberal construction does not mean that this court
can ignore a clear failure in the pleading to allege facts which set forth a claim currently cognizable
in a federal district court. Weller v. Dep’t of Soc. Servs., 901 F.2d 387, 391 (4th Cir. 1990).
The Supreme Court considered the issue of well-pleaded allegations, explaining the
interplay between Rule 8(a) and Rule 12(b)(6) in Bell Atlantic Corp. v. Twombly:
Federal Rule of Civil Procedure 8(a)(2) requires only “a short and plain statement
of the claim showing that the pleader is entitled to relief,” in order to “give the
defendant fair notice of what the ... claim is and the grounds upon which it rests.”
While a complaint attacked by a Rule 12(b)(6) motion to dismiss does not need
detailed factual allegations, a plaintiffs obligation to provide the “grounds” of his
“entitle[ment] to relief’ requires more than labels and conclusions, and a formulaic
recitation of the elements of a cause of action will not do. Factual allegations must
be enough to raise a right to relief above the speculative level...
6

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 7 of 26

550 U.S. 544, 555 (2007) (internal citations omitted); see also Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (“A claim has facial plausibility when the plaintiff pleads factual content that allows the
court to draw the reasonable inference that the defendant is liable for the misconduct alleged.”
(citing Twombly, 550 U.S. at 556)); see also Tobey v. Jones, No. 11-2230, 2013 WL 286226, at *3
(4th Cir. Jan. 25, 2013) (affirming district court’s denial of Rule 12(b)(6) motion, noting that
Twombly reiterated that a plaintiff “was not required to state [] precise magical words” to plausibly
plead claim). When ruling on a motion to dismiss, the court “must accept as true all of the factual
allegations contained in the complaint.” Erickson v. Pardus, 551 U.S. 89, 94 (2007). The court is
also to ‘“draw all reasonable inferences in favor of the plaintiff.’” E.I. du Pont de Nemours & Co.
v. Kolon Indus., Inc., 637 F.3d 435, 440 (4th Cir. 2011) (quoting Nemet Chevrolet, Ltd. v.
Consumerajfairs.com, Inc., 591 F.3d 250, 253 (4th Cir. 2009)). Although a court must accept all
facts alleged in the complaint as true, this is inapplicable to legal conclusions, and “[tjhreadbare
recitals of the elements of a cause of action, supported by mere conclusory statements, do not
suffice.” Iqbal, 556 U.S. at 678 (citation omitted). While legal conclusions can provide the
framework of a complaint, factual allegations must support the complaint for it to survive a motion
to dismiss. Id. at 679. Therefore, a pleading that provides only “labels and conclusions” or “naked
assertion[s]” lacking “some further factual enhancement” will not satisfy the requisite pleading
standard. Twombly, 550 U.S. at 555, 557. Further, the court need not accept as true unwarranted
inferences, unreasonable conclusions, or arguments.” E. Shore Mkts., Inc. v. J.D. Assocs., Ltd.
P’ship, 213 F.3d 175, 180 (4th Cir. 2000). At bottom, the court is mindful that a complaint “need
only give the defendant fair notice of what the claim is and the grounds upon which it rests.”
Coleman v. Md. Ct. ofApps., 626 F.3d 187,190 (4th Cir. 2010) (internal quotation marks omitted).

7

3:18-cv-00834-MGL

III.

Date Filed 12/19/19

Entry Number 98

Page 8 of 26

Discussion
A. Plaintiffs Original and Amended Complaints
As Plaintiff is proceeding pro se, her precise legal theories are not always readily apparent.

Review of her earlier pleadings and the rulings associated with them is instructive. Construed
liberally in Plaintiffs favor, and as noted in previous R&Rs, Plaintiffs original Complaint as
served included a claim for injunctive relief brought pursuant to the Americans with Disabilities
Act (“ADA”) and the Family Medical Leave Act (“FMLA”) as to Defendant SCDHHS and an
FMLA cause of action against the Individual Defendants in their individual capacities. See ECF
Nos. 1 -6, 25, 34. Plaintiffs purported claims brought pursuant to Title VII of the Civil Rights Act
of 1964, her claims for monetary relief against SCDHHS under the ADA and FMLA, her ADA
claims against the Individual Defendants, and her claim against another defendant were summarily
dismissed without being served. See ECF No. 34; 28 U.S.C. § 1915(e)(2)(B) (noting claims by
indigent parties may be dismissed sua sponte and without service of process if they are based on
meritless legal theories).
Plaintiffs Amended Complaint, submitted with the court’s leave, included the same
Defendants served with the original Complaint—SCDHHS and Individual Defendants Sechrest,
Brown, Backman, and Liggett—and included causes of action under the ADA and the FMLA.
Am. Compl., ECF No. 64. Essentially, Plaintiff alleged that Defendants violated the ADA and
FMLA by failing to accommodate her medical condition related to fragrance sensitivity. Plaintiff
had been accommodated by being placed in a closed office; however, during renovation of her
workspace she was moved to an open cubicle. Plaintiff sought accommodations of being moved
to a closed office or being permitted to telecommute. See EEOC Charge, ECF No. 1-6 at 40
8

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 9 of 26

(attached to Compl. but not Am. Compl.). Based on the “denial of an effective accommodation,”
Plaintiff “was forced to go on medical leave related to [her] condition.” Id. She alleged her
employment was terminated as of December 1, 2016 (not November 4, 2015, as mistakenly
indicated in the Third R&R), because she was unable to return to work. Id. Plaintiffs list of
damages sought in her Amended Complaint was slightly different from those sought in her original
Complaint but included requests for both injunctive and monetary relief. Am. Compl. 18. In the
Amended Complaint, Plaintiff sought to be reinstated to her position with SCDHHS; to have her
personnel file “clear of all negative documentation” regarding attendance since October 2015; to
be reimbursed for out-of-pocket expenses since October 2015; to be awarded “maximum damages
allowed for exemplary & compensatory for mental & emotional pain & suffering” since that time;
and to recover interest, expenses, and other damages allowed by law. Id.; cf. ECF No. 1-6 at 48 (in
which Plaintiff sought back pay, seniority that allowed her to receive retiree benefits, an indication
in her personnel record that she retired with full benefits, out-of-pocket medical expenses, and
“maximum damages allowed for exemplary, compensatory for mental/emotional pain and
suffering”). The Amended Complaint, comprised of 21 handwritten pages and several attachments,
did not clearly delineate what claims were brought against what defendant(s). Instead, much of the
Amended Complaint focused on reasons Plaintiff believed each Individual Defendant ought to be
held responsible for her termination. See Am. Compl. 6-18. Many of the documents attached to
the Complaint were also attached to the Amended Complaint.

9

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 10 of 26

B. The Court’s Ruling on the Amended Complaint
As Plaintiff s Second Amended Complaint builds on her Amended Complaint, brief review
of the claims in the Amended Complaint is appropriate. Following is a synopsis' of the
undersigned’s Third R&R, in which it was recommended that Plaintiffs Amended Complaint be
dismissed in its entirety. Except when the Amended Complaint clearly stated otherwise, the
undersigned interpreted Plaintiffs causes of action in the Amended Complaint to be the same as
those permitted to be served in her earlier Complaint. As noted above, the undersigned is of the
opinion that Judge Lewis appropriately adopted the Third R&R in its entirety, making the
recommendations in the Third R&R the court’s order. To the extent further substantive review of
the claims in Plaintiff’s Amended Complaint is to be undertaken, the undersigned reaffirms the
recommendations in its Third R&R and recommends that all claims in the Amended Complaint be
dismissed for failure to state a claim against any Defendant. The Amended Complaint was
dismissed, as follows:
•

Plaintiff may not pursue monetary damages against SCDHHS as to ADA or FMLA claims.
Third R&R 5-6.

•

Plaintiff may not pursue ADA claims against the Individual Defendants. Id. at 7.

•

Plaintiff may not pursue FMLA claims against the Individual Defendants. Id. at 8-11.

•

Plaintiff may not pursue injunctive relief against SCDHHS under the ADA or FMLA; any
cognizable injunctive relief would be pursued under the Ex Parte Young exception (Ex
Parte Young, 209 U.S. 123 (1908)), for prospective injunctive relief against individuals.
Id. at 11-12.

1 The reasoning and analysis of the Third R&R is not repeated in detail herein except when
necessary for clarity. Please see the Third R&R for additional detail of the Amended Complaint
and the recommended dismissal of same.

10

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 11 of 26

o While Plaintiffs request to be reinstated to her position at SCDHHS is the type of
prospective injunctive relief potentially cognizable as to appropriate individuals
pursuant to the Ex Parte Young exception, none of the named Individual Defendants
had the requisite responsibility and authority to afford the relief sought. Third R&R
13-14.
o Other requested injunctive relief (such as the “cleaning up” of her personnel file
and the issuance of a “permanent injunction” against future violations) are outside
the scope of cognizable injunctive relief contemplated by the Ex Parte Young
exception. Id. at 15.
C. Second Amended Complaint
Plaintiff submitted her Second Amended Complaint on May 6, 2019, ECF No. 84, and
Defendants’ Motion to Dismiss it is the subject of this R&R.
As with her earlier pleadings, Plaintiffs 58-page Second Amended Complaint does not
always plainly delineate what causes of action she seeks to bring against what Defendant(s).
Construed in the light most favorable to Plaintiff, the Second Amended Complaint appears to
include the following claims, some of which have already been considered as noted above:
•

ADA, FMLA claim for injunctive relief against SCDHHS, Second Am. Compl. 8.

•

FMLA, Rehabilitation Act claim for monetary damages against SCDHHS and Individual
Defendants Sechrest, Brown, Backman, Leggett, id. at 8-9, 37.
o The Rehabilitation Act claims are new to the Second Amended Complaint.

•

ADA, FMLA, Rehabilitation Act claim for injunctive relief against newly named defendant
Christian L. Soura, Director of SCDHHS (2014-2017), id. at 11.

•

42 U.S.C. § 1983 claim under FMLA and Rehabilitation Act, seeking damages against the
Individual Defendants, possibly including Soura,2 id. at 13-23.

2 It is not clear whether Plaintiff intends to bring a 42 U.S.C. § 1983 claim against newly named
Defendant Soura. As the analysis is similar regarding Plaintiffs § 1983 claims as to all natural
11

3:18-cv-00834-MGL

o

Date Filed 12/19/19

Entry Number 98

Page 12 of 26

The substance of the claims against the original Individual Defendants are similar
to those raised in the Amended Complaint; however, the Amended Complaint did
not contain any claims under § 1983. Compare Am. Compl. 8-14 with Second Am.
Compl. 24-33.

o

Plaintiff alleges newly added Defendant Soura violated her rights under the “ADA,
FMLA, the Rehabilitation Act, and possibly other Federal laws that may be
uncovered during trial.” Second Am. Compl. 33. Soura allegedly “upheld the
termination” of Plaintiff and “concurred/allowed” other Defendants to violate
Plaintiffs rights. Id.

•

Plaintiffs amended Prayer for Relief seeks the following:
My job back
(1)
Reimbursed for any and all out-of-pocket expenses that I and my
(2)
family incurred as a result of said actions beginning in October 2015 until
now according to proof at trial and may be allowable by law
For general, special, and punitive damages according to proof at trial
(3)
and may be allowable by law
For interest as allowed by law
(4)
Award
maximum damages allowed for exemplary and
(5)
compensatory for mental and emotional pain and suffering that I and my
family suffered as a result of said actions beginning in October 2015 until
now according to proof at trial and may be allowable by law
That the expenses which the Plaintiff necessarily incurred in
(6)
bringing the action be awarded
That the court grant permanent injunctive reliefto prevent any future
(7)
violations of these laws alleged herein
That the court grant any other relief as may be just and proper.
(8)

Second Am. Compl. 56-57.

Defendants, including Soura, the undersigned considers Soura to be included as a defendant to that
claim.
12

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 13 of 26

D. Defendants’ Motion to Dismiss Second Amended Complaint
Defendants’ Motion to Dismiss focuses on the differences between the Amended
Complaint and Second Amended Complaint, arguing the Second Amended Complaint is also
subject to Rule 12(b)(6) dismissal. As noted by Defendants (and not disputed by Plaintiff) the
Second Amended Complaint asserts some of the same claims that were alleged in the Amended
Complaint, as well as several new claims. These new claims that are the subject of Defendants’
Motion to Dismiss are:
•

a Rehabilitation Act claim against SCDHHS and the original Individual Defendants
(Sechrest, Brown, Backman, and Liggett);

•

claims against Sechrest, Brown, Backman, Liggett, and Soura in their individual
capacities under 42 U.S.C. § 1983 for violation of Plaintiff s rights under the
Rehabilitation Act and the FMLA; and

•

a claim for injunctive relief against former SCDHHS Director Soura in his official
capacity.
1. Claims raised and dismissed in the court’s earlier orders need not be
reconsidered.

Defendants first argue that, to the extent Plaintiff again raises claims as to SCDHHS and
the Individual Defendants (except Soura) that were dismissed in the prior Orders (as recommended
by prior R&Rs), those claims should be dismissed from the Second Amended Complaint without
the need for additional consideration. Defs. Mem. 2-3. In response, Plaintiff argues this should not
take place as the district court did not discuss the Second Amended Complaint in its May 6, 2019

13

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 14 of 26

Order adopting the Third R&R. PI. Mem. 5-6. Plaintiffs response indicates a misunderstanding of
Defendants’ first argument.
What Defendants argue regarding the “law of the case” theory would not require a prior
court ruling on the Second Amended Complaint. Rather, this legal theory provides that a court
need not reanalyze claims that are raised again when those claims are materially the same as claims
already dismissed by the court in the same litigation. As explained by the Fourth Circuit, “[t]he
law-of-the-case doctrine provides that in the interest of finality, ‘when a court decides upon a rule
of law, that decision should continue to govern the same issues in subsequent stages in the same
case.’” Carlson v. Boston Sci. Corp., 856 F.3d 320, 325 (4th Cir. 2017) (quoting TFWS, Inc. v.
Franchot, 572 F.3d 186, 191 (4th Cir. 2009)).
Here, the undersigned agrees with Defendants that the claims already considered and
dismissed in the court’s rulings on the original and Amended Complaint ought not be revisited
now. That the Second Amended Complaint had not already been considered and ruled on is of no
moment. Rather, the undersigned has now reviewed Plaintiffs Second Amended Complaint in
detail and is not inclined to revisit the court’s prior rulings in light of information in the Second
Amended Complaint. See, e.g., City of Charleston, S.C. v. Hotels.com, LP, 520 F. Supp. 2d 757,
774-75 (D.S.C. 2007) (finding it appropriate to invoke the law-of-the-case doctrine as to a motion
to dismiss that raised same the issues that had been presented and ruled on in connection with a
futility-challenge to a prior motion when the new motion did not raise new, material facts that
would change the court’s prior analysis). In City ofCharleston, Senior United States District Judge
Patrick M. Duffy noted the law-of-the-case doctrine “posits that when a court decides upon a rule
of law, that decision should continue to govern the same issues in subsequent stages in the same
14

3:18-CV-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 15 of 26

case. Law of the case directs a court’s discretion. It does not limit the tribunal’s power.” Id. at 774
(citing Arizona v. California, 460 U.S. 605, 618-19 (1983)).
In other words, those claims previously dismissed need not be discussed in this R&R as
the prior rulings are the law of the case. The court’s prior rulings in earlier orders and R&Rs are
incorporated herein by reference and stand now. Only the new claims and the new Defendant need
be considered in detail in ruling on the viability of the Second Amended Complaint. The newly
pleading claims include:
•

a claim for monetary damages against SCDHHS and original Individual Defendants in their
individual capacity under the Rehabilitation Act;

•

claims against the Individual Defendants individually, including newly named Defendant
Soura, under § 1983 for violating Plaintiffs rights under the Rehabilitation Act and the
FMLA;

•

a claim for injunctive relief against Soura under the ADA/Rehabilitation Act/FMLA.

Defendants seek Rule 12(b)(6) dismissal of each of Plaintiffs newly added claims. The court
considers them, seriatim.
2. Plaintiffs Rehabilitation Act claims
Defendants argue that Plaintiffs newly brought claims for violation of the Rehabilitation
Act should be dismissed as untimely. Defs. Mem. 4-5. Rule 12(b)(6) dismissal on timeliness
grounds may be appropriate “if the time bar is apparent on the face of the complaint.” Dean v.
Pilgrim’s Pride Corp., 395 F.3d 471, 474 (4th Cir. 2005).
The Rehabilitation Act does not contain its own specific statute of limitations. See
McCullough v. Branch Banking & Trust Co., 35 F.3d 127, 129 (4th Cir. 1994). In the absence of

15

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 16 of 26

an applicable federal standard, Plaintiffs claims are governed by “the state statute of limitations
that applies to the most analogous state-law claim.” Society Without A Name v. Virginia, 655 F.3d
342, 347 (4th Cir. 2011); see also Wolsky v. Med. Coll, of Hampton Roads, 1 F.3d 222, 223 (4th
Cir.1993) (applying most-analogous-state-law standard to Rehabilitation Act). To determine
which state-law claim is most analogous, courts look to the rights and remedies provided, Wolsky,
1 F.3d at 224, and the persons the law intends to protect. McCullough, 35 F.3d at 132. Federal law
determines when both claims began to accrue. See Society Without A Name, 655 F.3d at 348 (citing
Cox v. Stanton, 529 F.2d 47, 50 (4th Cir. 1975)). Under federal law, “[a] civil rights claim accrues
when the plaintiff ‘knows or has reason to know of the injury which is the basis of the action.’”
Society Without A Name, 655 F.3d at 348 (quoting Cox, 529 F.2d at 50).
In the employment-discrimination context, courts have concluded that the South Carolina
Human Affairs Law (SCHAL)’s one-year statute of limitations is appropriately applied to
Rehabilitation Act claims. SCHAL, codified at S.C. Code Ann. §1-13-10 et seq., prohibits
discrimination in employment on the basis of disability as well as other protected characteristics.
SCHAL provides that a claimant may file a lawsuit within one year from the date of the violation
alleged. See S.C. Code Ann. §§ 1-13-90(d)(7) and (8), (e) and (f). See, e.g., Moore v Greenwood
Sch. Dist. No. 52,195 F. App’x 140,142-43 (4th Cir. 2006) (concluding SCHAL is most analogous
to a Title IX claim of employment discrimination); Jackson v. S.C. Dep't of Disabilities and
Special Needs, No. CV 4:15-5033-BHH-KDW, 2016 WL 3647981, at *3-4 (D.S.C. June 15,
2016), report and recommendation adopted, 2016 WL 3633660 (D.S.C. July 7, 2016) (applying
SCHAL’s one-year statute of limitations to state employee’s Rehabilitation Act-based claim of
disability discrimination).
16

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 17 of 26

Defendants submit Plaintiffs Rehabilitation Act claims were not timely brought based on
the face of her pleadings. Plaintiff indicates her employment with SCDHHS was terminated on
December 1, 2016. Second Am. Compl. 21. Plaintiff began this case by filing her original
Complaint on March 27, 2018, see ECF No. 1, well more than one year after she was terminated.
Accordingly, Defendants argue that all Rehabilitation Act claims are untimely and should be
dismissed from the Second Amended Complaint. Defs. Mem. 4-5.
Plaintiff does not dispute the applicability of the one-year SCHAL limitations period.
Rather, she argues that the “continuing violation doctrine” makes her claims timely. PI. Mem. 910. Plaintiffs argument is brief, citing generally to a case from the Ninth Circuit Court of Appeals
(cited by Plaintiff as Douglas v. California Department of Youth Authority (No. 99-17140, Nov.
14, 2001).3 Plaintiffs argument appears to be that her claim can be pursued as timely because
SCDHHS “continues to violate federal laws with their procedures identified in the Complaint,”
which “continues to expose its employees to its discriminatory practices[.]” PI. Mem. 9-10.
SCDHHS’s allegedly continued practice of discrimination as to its current employees “renders
[Plaintiffs] claims timely by extending the claims past the deadline for filing” them, Plaintiff
argues. Id.
On Reply, Defendants argue that the continuing-violation doctrine is inapplicable here
because Plaintiffs claimed wrongs of discrimination and failure-to-accommodate are considered
“discrete acts” for purposes of determining statute of limitations issues. Reply 4-5 (citing Nat 7
R.R. Passenger Corp. v. Morgan, 536 U.S. 101 (2002)). Defendant also argues that any failure to

3 As Ninth Circuit law is not binding on this court and as Plaintiff has provided no legal analysis
or even a proper case citation to the Douglas case, the court will not endeavor to discern how
Plaintiff intends the case to bolster her argument.
17

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 18 of 26

“undo” or change a discrete act of discrimination does not begin the limitations period anew. Id.
at 5-6 n.2 (citing Martin v. Clemson Univ., 654 F. Supp. 2d 410, 421-22 (D.S.C. 2009)).
The undersigned agrees with Defendants that Plaintiffs Rehabilitation Act claims should
be dismissed as untimely. The continuing-violation doctrine does not operate as Plaintiff would
have it apply. Rather, as explained in Morgan and later cases, acts that allegedly happened to
Plaintiff—termination and failure to accommodate—are discrete acts, not “continuing violations.”
With discrete acts, the statute of limitations begins to run when the act, such as the termination
and/or the denial of accommodation, occurs. See Morgan, 536 U.S.'at 114 (“Discrete acts such as
termination, failure to promote, denial of transfer or refusal to hire are easy to identify.”); Hill v.
Hampstead Lester Morton Court Partners, L.P., 581 F. App’x 178, 181 (4th Cir. 2014) (“[A]
defendant’s failure to accommodate constitutes a discrete act rather than an ongoing omission.
Accordingly, the continuing violation doctrine is inapplicable[.]”).
Here, Plaintiff was terminated in December 2016 and her alleged failure-to-accommodate
claim took place prior to her termination. These discrete acts took place well more than one year
prior to Plaintiffs filing suit, and the continuing-violation doctrine does not make them timely.
Further, the timeliness of Plaintiff s claims is considered as to the alleged wrongs impacting her.
Plaintiff has alleged no wrongs that happened to her that took place within one year of the date she
began this litigation. That Plaintiff believes SCDHHS continues to cause harm to others simply
does not relate to her own Rehabilitation Act claims. Burgess v. Costco Wholesale Corp., No.
4:10-CV-1678-RBH, 2013 WL 645982, at *3 (D.S.C. Feb. 21, 2013), affd, 533 F. App’x 271 (4th
Cir. 2013) (finding continuing-violation doctrine inapplicable to make plaintiffs claims timely
because the later claims were directed at others, not plaintiff). Further, that she may continue to
18

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 19 of 26

feel impacted by SCDHHS’s actions that happened on or before December 1, 2016 is of no
moment in considering the timeliness of her claims. See Ledbetter v. Goodyear Tire & Rubber
Co., Inc., 550 U.S. 618, 628 (2007), superseded by statute on unrelated grounds, Lilly Ledbetter
Fair Pay Act of 2009, Pub. L. No. 11-2, 123 Stat. 5.
Plaintiffs Rehabilitation Act claims should be dismissed as untimely. As this ruling
encompasses all of Plaintiffs Rehabilitation Act claims the court does not separately consider
Defendants’ alternative argument that the natural Defendants are not subject to Rehabilitation Act
claims in their individual capacities.
3. Plaintiffs claims under 42 U.S.C § 1983 for violating Plaintiffs rights under
the Rehabilitation Act and the FMLA.
In her Second Amended Complaint Plaintiff includes claims against the natural Defendants
in their individual capacities under 42 U.S.C § 1983 for violating Plaintiffs rights under the
Rehabilitation Act and the FMLA. See Second Am. Compl. 13. Defendants argue the § 1983
claims should be dismissed as a matter of law because rights created by the Rehabilitation Act and
the FMLA are not remediable under § 1983. Defs. Mem. 7-10.
Section 1983 ‘“is not itself a source of substantive rights,’ but merely provides ‘a method '
for vindicating federal rights elsewhere conferred.’” Albright v. Oliver, 510 U.S. 266, 271 (1994)
(quoting Baker v. McCollan, 443 U.S. 137, 144 n.3 (1979)). To state a claim under § 1983, a
plaintiff must allege: (1) that a right secured by the Constitution or laws of the United States was
violated, and (2) that the alleged violation was committed by a person acting under the color of
state law. West v. Atkins, 487 U.S. 42, 48 (1988). Identifying a federal constitutional or statutory
right is a necessary first step to maintaining a § 1983 claim against a state actor, but it is not
sufficient in and of itself because a plaintiff can maintain a § 1983 claim for a violation of federal
19

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 20 of 26

statutory or constitutional rights “only if Congress has not foreclosed recourse to [§ 1983].”
Kendall v City of Chesapeake, Va., 174 F.3d 437, 440 (4th Cir. 1999). As the Fourth Circuit
explained in Kendall:
Because § 1983 is a statutory remedy ... Congress retains the authority to repeal it
or replace it with an alternative remedy. The crucial consideration is what Congress
intended. Congress can manifest its intent to preclude use of § 1983 either expressly
or impliedly, by creating a comprehensive enforcement scheme that is incompatible
with individual enforcement under § 1983.
Id., 174 F.3d at 440 (internal quotation and citations omitted; ellipsis in Kendall). In Kendall, for
example, the Kendall court looked to the details of the Fair Labor Standards Act (“FLSA”),
including the FLSA’s provision of a private right of action for enforcement of FLSA rights, and
determined that Congress “evinced a clear intent to preclude the use of § 1983 for the protection
of overtime compensation rights secured by the FLSA.” Id. at 443.
Defendants note that the Rehabilitation Act itself is silent as to whether Congress intended
that the Act foreclose a § 1983 claim. Rather, based on Kendall and other cases, Defendants submit
that the Rehabilitation Act’s provision of a private right of action for individuals alleging
employment discrimination based on a disability, see 29 U.S.C. 794a, “strongly suggests a
Congressional intent to preclude resort to § 1983.” Kendall, 174 F.3d at 443 (end citations
omitted); Def. Mem. 8-9. Defendants acknowledge that the Fourth Circuit has never ruled on this
precise issue but several circuit courts of appeals have considered the issue and found that § 1983
cannot be used to enforce rights created by the Rehabilitation Act. Def. Mem. 9-10 (citing A.Wv.
Jersey City Pub. Schls., 486 F.3d 791, 804-06 (3d Cir. 2002); Lollar v. Baker, 196 F.3d 603, 60810 (5th Cir. 1999); Tri-Cnty. Housing Inc. v. Bauman, 826 F.3d 446, 448-49 (7th Cir. 2016);

20

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 21 of 26

Vinson v. Thomas, 288 F.3d 1145, 1155-56 (9th Cir. 2002); Holbrook v. City ofAlpharetta, Ga.,
112 F.3d 1522, 1530-31 (11th Cir. 1999)).
Similarly, Defendants argue, Plaintiffs attempt to include a claim against the natural
defendants under 42 U.S.C. § 1983 for violating her rights under the FMLA4 cannot survive Rule
12(b)(6). Congress modeled the FMLA on the FLSA, 29 U.S.C. § 201 et seq., and expressed its
intent that the FMLA was to be enforced in accordance with the enforcement scheme of the FLSA.
See Taylor v. Progress Energy, Inc., 415 F.3d 364, 373-74 (4th Cir. 2005) (noting Congress
indicated the FMLA was to be implemented in the same way as the FLSA), reh ’g granted,
judgment vacated (June 14, 2006), opinion reinstated on reh’g, 493 F.3d 454 (4th Cir. 2007). As
noted above, in Kendall, the Fourth Circuit held that the enforcement scheme of the FLSA
“evinced a clear intent to preclude the use of § 1983 for the protection of... rights secured by the
FLSA.” Kendall 174 F.3d at 443. Accordingly, Defendants argue, § 1983 cannot be used to enforce
rights created by the FMLA and Plaintiffs purported § 1983 claims against the natural defendants
for violating her rights under the FMLA should be dismissed.
Plaintiff does not respond specifically to Defendants’ legal argument that Congress did not
intend that a § 1983 remedy be available for violations of the Rehabilitation Act or the FMLA.
Rather, Plaintiff references § 1983 as being a “means to enforce civil rights that already exist” and
notes that “Section 504 of the Rehabilitation Act is a civil rights law,” PI. Mem. 16, 18, as is the
FMLA, id. at 18. Elsewhere in her response, Plaintiff generally notes Defendants’ statement that
Congress did not give ‘“clear and unambiguous notice to states that acceptance of federal financial
assistance is conditioned on the state’s subjecting their employees and officials to individual

4 Prior court rulings have dismissed Plaintiffs FMLA claims brought under the FMLA itself.
21

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 22 of 26

liability” under the Rehabilitation Act.’” PI. Mem. 7-8. This lack of unambiguous notice, Plaintiff
urges, is the “very reason” why the § 1983 claim for alleged violation of her rights under the
Rehabilitation Act and FMLA should be permitted to proceed. Id. at 8.
Having considered the statutory and case law presented, the undersigned agrees with
Defendants that no separate § 1983 cause of action should lie for Plaintiff to pursue claims against
the natural defendants for alleged violation of the Rehabilitation Act or the FMLA. Plaintiffs §
1983 claims should be dismissed for failure to state a claim as to any Defendant.
4. Plaintiffs claims for injunctive relief as to Defendant Christian Soura, former
Director of SCDHHS.
Finally, Defendants seek dismissal of the only remaining new claims—those for injunctive
relief against Defendant Christian Soura, whom Plaintiff identifies as the Director of SCDHHS
from 2014-2017. Second Am. Compl. 11 (indicating Plaintiff seeks a “new claim for injunctive
relief’ against Soura in his “individual capacity” pursuant to the ADA, FMLA, and Rehabilitation
Act); id. at 33 (alleging Soura violated Plaintiffs rights by upholding her termination and
concurring in others’ violating her rights); see Def. Mem. 11.
As an initial matter, the undersigned agrees with Defendants that Plaintiffs claim against
Soura lacks any real basis in fact regarding Soura’s purported actions. Any claim against him could
be dismissed on that ground alone. Further, to the extent Plaintiffs Second Amended Complaint
is construed to contain any claims against Soura other than the discussed claim for injunctive relief,
such claims should be dismissed for failure to state a claim for the reasons set out above and the
reasons set out in prior R&Rs.
As do Defendants, the undersigned reads Plaintiffs latest pleading to include a claim
against Soura for the injunctive relief of getting her “job back[.]” See Second Am. Compl. 56. As
22

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 23 of 26

discussed in some detail in prior R&Rs, the Eleventh Amendment protects SCDHHS from claims
for injunctive relief pursuant to the ADA and the FMLA. In limited circumstances, certain types
of claims for injunctive relief against certain individuals acting in their official capacities (such as
Soura) might be permissible based on the doctrine introduced by Ex parte Young, 209 U.S. 123
(1908). See Third R&R 12; Second R&R 9-10. As to a request for prospective injunctive relief
such as being reinstated in a job, Ex parte Young-type relief may be available against individual
defendants when a plaintiff has demonstrated a special relationship between the state official or
employee sued and the actions sought to be prospectively enjoined. Kobe v. Haley, 666 F. App’x
281, 299 (4th Cir. 2016). Practically speaking, a plaintiff must name as a defendant one or more
state officials or employees who has both the responsibility for the alleged ongoing violations of
federal law and the authority to provide prospective redress for those alleged ongoing violations,
i.e., the authority to end the alleged ongoing violations. See id. at 299-300; see also Third R&R
13. As discussed in the Third R&R, the previously named Individual Defendants lacked the
“relationship” and “authority” to reinstate Plaintiff, requiring dismissal of claims for injunctive
relief as to them. As previously explained, South Carolina law gives only the Director of SCDHHS
the authority to hire agency employees. See Third R&R 13-14; see S.C. Code Ann. § 44-6-100.
(“The director shall have sole authority to employ and discharge employees [of SCDHHS]....”)
(emphasis added).
Here, potentially based on this prior ruling, Plaintiff now seeks injunctive relief against
Soura, a former Director of SCDHHS. For argument’s sake, the undersigned considers the claim
against Soura to be one for an injunction seeking to have him reinstate Plaintiff into her prior
position with SCDHHS. Defendants argue this claim for injunctive relief must be dismissed for

23

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 24 of 26

the simple reason that Soura is no longer Director of SCDHHS, nor was he director when Plaintiff
initially filed suit in 2018. Defs. Mem. 11 (citing Kobe v. Haley, 666 F. App’x at 298-99). In Kobe,
former members of the Budget and Control Board were dismissed because, as former board
members, they could not provide the prospective injunctive relief sought.
Plaintiff offers little response to this argument other than to indicate that Soura was the
SCDHHS Director “at the time of Plaintiff s rights being violated.” PI. Mem. 19. Plaintiff does not
address the fact that Soura was not Director when she filed suit and, therefore, was never in a
position to grant her the injunctive relief sought before this court. Dismissal is appropriate.
IV.

Recommendation
For the reasons discussed in the court’s prior R&Rs and Orders concerning those R&Rs,

as well as the reasons set out above, Plaintiffs Second Amended Complaint should be dismissed
in its entirety. It is recommended that the district court grant Defendants’ Motion to Dismiss, ECF
No. 85, and end this case. As set out more fully in the Notice below, Plaintiff has an opportunity
to submit any objections to this R&R. However, Plaintiff is admonished that any objections should
be so titled and should be submitted within 14 days. Any attempt to challenge the proposed rulings
in this R&R by submitting yet another amended pleading should not be permitted. Further, in the
interest ofjudicial economy and given Plaintiffs numerous opportunities to amend her pleadings,
it is recommended that Plaintiffs Second Amended Complaint be considered a final and
appealable order. See, e.g., Martin v. Duffy, 858 F.3d 239, 248 (4th Cir. 2017) (noting “repeated,
ineffective attempts at amendment suggest that further amendment of the complaint would be
futile”; finding district court’s third dismissal for failure to state a claim indicated plaintiffs

24

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 25 of 26

pleading deficiency could not be cured by amendment and made the complaint’s dismissal a final,
appealable order).
IT IS SO RECOMMENDED.

Kaymani D. West
United States Magistrate Judge

December 19, 2019
Florence, South Carolina

The parties are directed to note the important information in the attached
“Notice of Right to File Objections to Report and Recommendation.”

25

3:18-cv-00834-MGL

Date Filed 12/19/19

Entry Number 98

Page 26 of 26

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this Report and
Recommendation with the District Judge. Objections must specifically identify the portions of the
Report and Recommendation to which objections are made and the basis for such objections. “[I]n
the absence of a timely filed objection, a district court need not conduct a de novo review, but
instead must ‘only satisfy itself that there is no clear error on the face of the record in order to
accept the recommendation.’” Diamond v. Colonial Life & Acc. Ins. Co., 416 F.3d 310 (4th Cir.
2005) (quoting Fed. R. Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of service of
this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b); see Fed. R. Civ.
P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5 may be accomplished by
mailing objections to:
Robin L. Blume, Clerk
United States District Court
Post Office Box 2317
Florence, South Carolina 29503
Failure to timely file specific written objections to this Report and Recommendation
will result in waiver of the right to appeal from a judgment of the District Court based upon
such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am, 474 U.S. 140 (1985); Wright v.
Collins, 766 F.2d 841 (4th Cir. 1985); United Slates v. Schronce, 727 F.2d 91 (4th Cir. 1984).

26

)

Additional material
from this filing is
available in the
Clerk's Office.

